                                                                                                     II            I
                                                   NATIONAL SCIENCE FOLNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I05090050
                                                                                 11           Page of 1            ,
         Our office receive
         attendance (T&A)
         suggested that we
         center where subject's son is enrolled.

         We subpoenaed the daycare attendance records and compared them with the T & A . " w ealso:                I
         asked the          shop to create a file of information for us regarding the subject's computer login
         and logout times. The data suggested that there might be inaccuracies in the subject's T&A
         We interviewed the subject to address the discrepancies.
                                                                                                          m.
                                                                                                    11



         During the interview, the subject provided some explanations for why the data appeared to be
         inaccurate. Although the subject's explanations are to some extent plausible, the evidence does
         suggest that there may be a some discrepancy between the arrivalldeparture times listed on the
         subject's T&A         and the times he actuallfworked. We believe that the subject's ':
         explanation regarding the lack of diligence in completing his T&A          is the most likely
         reason for the apparent discrepancies. We believe that' the subject was careless in his attempt to
         accurately account for his time. It would, however, be difficult to prove any intentional
                                                                                                              /I
         fraudulent time claims.

         We provided recommended actions to the                     regarding both the individual and the
         staff as a whole regarding the accurate accounting of their time at work.
                                                                                                              1;




         Accordingly, this case is closed.




'SF OIG Form 2 ( 1 1/02)
                                                                                                              I
